                     . ..

(t
  "..kl. v




                    DEPARTMENT OF HEALTH &. HUMAN SERVICES           Office of Inspetor General


"'''''.10
                                                                      Memorandum
            Date
   MAY 7
            From
   Richard P. Kusserow
                    Inspector Genera


        Subject'    OIG Management Advisory Report: " Pricing of Seat Lift

                    Devices " OEI-02-90-02090
                    Gail R. Wilensky, Ph.

                    Administrator
                    Heal th Care Financing Administration



                    This management advisory report provides the Health Care

                    Financing Administration (HCFA) with current availability and

                    pricing information on seat lift mechanisms.

                    BACKGROUND

                    The Office of Inspector General (OIG) February 1989 report,
                    "Medicare Coverage of Seat Lift Chairs" (OAI-02-88-00100),
                    concluded that: "There are strong indications that seat lift
                    chairs  (SLC) do not qualify as durable medical equipment (DME)
                    under the Medicare program.    The OIG recommended that the HCFA
                         reconsider whether SLCs , in fact, meet the Medicare

                    definition of DME.


                    The HCFA agreed with the recommendation and drafted a notice
                    for the Federal Register to exclude coverage of SLCs. The HCFA
                    planned to continue covering seat lift mechanisms that are
                    independent of a complete chair. Concern was expressed wi thin
                    the Office of the Secretary that options other than exclusion
                    were not considered by HCFA , including continuing to cover the
                    seat lift portion of the SLC under existing guidelines.
                    this context, it was noted that there was no available data to
                    provide estimates of costs associated with the manufacture and
                    sale of the seat lift portion of the SLe. Additionally,
                    was known about the pricing and availability of seat lifts. As
                                                                                   little
                    a result, HCFA asked the OIG to obtain information concerning
                    the availability and cost of seat    lifts.
. -




      Page 2 - Gail R. Wilensky, Ph.



      FINDINGS
      Seat Lift Devices Are Marketed In Two Basic Forms


      Independent or Free-Standinq Seat Lifts


      At least four independent or free- standing seat lift devices
      are marketed in the united           States.
                                           They are neither complete
      SLCs nor patient lifts similar to Hoyer           lifts.
                                                       These devices
      are free- standing and/or portable and can be placed upon a
      chair or bench inside and outside the home. They are the:
      "Assisto-seat " "Easy-Riser " "Automatic Lifter Seat " and
      "Pneumatic Lifter Seat.

      The "Pneumatic Lifter Seat" operates by using compressed
      the other devices are spring operated. The main features and
                                                                            air;
      pricing of these devices are summarized below.
                 ASS ISTO-SEAT      EAY-RISER        AUTOMATIC        PNEUMTIC
                                                     LIFTER SEAT      LIFTER SEAT
      ser
      eight     150 to                 80 to            150 to          112 to
      ettings . 220 lbs.              300 lbs.          250 lbs.        300 lbs.

      ize:
                   14 " x16 " x4"       16 in.          16 in.          16. 5 in.
       ,W                               square         square          square
      eight           7 lbs.            4 . 5 lbs.     5 lbs.         3 . 5 in.

      etail        $148. 50 to           $129 to      $129.   99 to      $250.
      rice         $159                  $169         $149.
      arket­
      ing           catalogue           Not yet       Catalogue       Catalogue
      pproach       and                               Direct          Direct
                    Surgical        production        Purchase        Purchase
                    Suppl iers
 Page 3 - Gail R. Wilensky,                   Ph. D.



 Seat Lift Chairs


There are several manufacturers of SLCs marketing them under

names such as "Cushion-Lift Chair, " "Action-Lift Chair " "Lift

o 'Matic " and "Easy-Lift.  All of these chairs operate
electrically, handle body weights up to 400 pounds , and

function in one of two ways:


            elevation of just the seati and

            elevation of the entire chair.
The SLCs which operate by the elevation of the entire chair

(chair lifts) are currently more heavily marketed than the

standard SLC. They are also more expensive. All of these
models are reimbursed by the Medicare program when all coverage

requirements are met.



Medicare Carriers 
                   ay Only For Seat Lift Chairs

Medicare carriers are not aware of any current allowed charges

for any seat lift devices other than SLCs. Carriers cover
electrically or hydraulically operated patient lift devices
which are different than SLCs and are used primarily for
immobilized or otherwise nonambulatory persons. Some carriers
are currently reimbursing both types of SLC (seat lift/chair
lift) without justification for the more expensive chair
These SLCs are billed at rates of about $300 to $500 more than
                                                                               lift.
standard SLCs and inflate the prevailing rates for Code 620.

Current reasonable charge rates for purchase and rental of SLCs
and related items                 follow.
                           Code E0620 is for Seat Lift Chairs
E0621 is for Slings or Seat Patient Lifts, E0625 is for Patient
Lift-Kartops, E0630 is for Patient Lifts - Hydraulic , and E0635
is for Patient Lifts - Electric:

                                  PURCHASE                            RENTAL
CODE                  HIGH                 LOW            HIGH             LOW
E0620                 $1, 487 *           $689.           $157.            $81. 87
E0621
E0625                 NONE
                             91. 22       $ 56.           $ 9. 12**        $ 9. 00**
                                          NONE            NONE            NONE
E0630                 $ 982.              $737.           $ 89.            $71.35
E0635                    685.             $692.           $157.            $75.
           All rates will be reduced 15% effective 04/01/90.
           Only two of carriers in the sample paid a rental rate.
r1




     Page 4 - Gail R. Wilensky, Ph. D.


     The Veterans Administration Does Not Usually Provide Seat Lift

     Chairs
     Contracting officers for the Department of Veterans Affairs'

     (VA) Federal Supply Schedules confirmed that SLCs of the type
     used by Medicare beneficiaries are not contracted for nor
     supplied to VA centers around the country. The VA generally
     provides veterans with a variety of patient lifts--usually
     hydraulically or electrically operated--when they have lost the
     use of their lower limbs. It   may be possible for a local VA
     center to provide a device such as a SLC on an individual
     basis , if it is determined a medical necessity.
     CONCLUSIONS

     This management advisory report is being provided

     for HCFA' s use in developing its regulations on SLCs and

     seat lifts. We have no formal recommendations.

     HCFA COMMENTS


     During the exit conference on this report , HCFA staff asked for
     more information on the manufacturer of the "Pneumatic Lifter
     Seat. This information was provided informally. No other
     significant comments or suggestions were made.

     Please call me if you have any questions , or your staff may
     contact Barry Steeley at FTS 646-3138.
